      DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL
                                                                           T




                                                                               Office of Audit Services, Region III
                                                                               Public Ledger Building, Suite 316
                                                                               150 S. Independence Mall West
                                                                               Philadelphia, PA 19106-3499




October 8, 2009

Report Number: A-03-07-00028

Mr. John Frierson
Director, Patient Financial Services
University of Virginia Medical Center
835 West Main Street
Charlottesville, Virginia 22908

Dear Mr. Frierson:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Payments for Epogen Administered at University of
Virginia Medical Center—Lynchburg Dialysis, Lynchburg, Virginia.” We will forward a copy
of this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov .
HTU               UHT




If you have any questions or comments about this report, please do not hesitate to call me at
(215) 861-4470 or through email at Stephen.Virbitsky@oig.hhs.gov , or contact Bernard Siegel,
                                    HTU                              UTH




Audit Manager, at (215) 861-4484 or through email at Bernard.Siegel@oig.hhs.gov . Please
                                                       HTU                                   UTH




refer to report number A-03-07-00028 in all correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. John Frierson


Direct Reply to HHS Action Official:

Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations (CFMFFSO)
Centers for Medicare & Medicaid Services
601 East 12 th Street, Room 235
           P   P




Kansas City, Missouri 64106
Department of Health and Human Services
            OFFICE OF 

       INSPECTOR GENERAL 





         PAYMENTS FOR 

    EPOGEN ADMINISTERED AT 

     UNIVERSITY OF VIRGINIA 

       MEDICAL CENTER– 

      LYNCHBURG DIALYSIS, 

      LYNCHBURG, VIRGINIA





                       Daniel R. Levinson

                        Inspector General 


                         October 2009

                         A-03-07-00028

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov
                       HU                   U




 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                   EXECUTIVE SUMMARY 


BACKGROUND 


Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people 65 years of age and older, people under 65 with certain disabilities,
and people of all ages with end-stage renal disease (permanent kidney failure requiring a kidney
transplant or dialysis). The Centers for Medicare & Medicaid Services administers the program.

Section 1881(a) of the Act establishes the benefits provided by Medicare Parts A and B for
individuals who have been determined to have end-stage renal disease as provided in
section 226A of the Act. Benefits include injections of Epogen, usually administered during
dialysis. Individuals diagnosed with end-stage renal disease often suffer from anemia, and
Epogen lessens the effects of anemia for those patients. Epogen doses are generally adjusted by
a physician based on a review of the patient’s medical record. For facilities that use a
preestablished dosing algorithm, a nurse may also adjust the Epogen dose to maintain an optimal
hematocrit (red blood cell) level.

As a basis for payment, section 1833(e) of the Act states: “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due . . . .” Federal
regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information, upon
request, to determine whether payment is due and, if so, the amount to be paid.

University of Virginia Medical Center— Lynchburg Dialysis (Lynchburg Dialysis), located in
Lynchburg, Virginia, is one of eight outpatient dialysis facilities operated by the University of
Virginia Medical Center. Lynchburg Dialysis provides treatment for end-stage renal disease
using 43 renal dialysis and 2 home training stations. It received payments totaling $11,115,806
for Medicare services provided from November 8, 2004, through June 30, 2006. Of this amount,
$2,444,366 was for the administration of Epogen. During our audit period, Lynchburg Dialysis
used dosing algorithms to adjust patient Epogen doses.

OBJECTIVE

Our objective was to determine whether Lynchburg Dialysis administered, billed, and was paid
for units of Epogen consistent with the units that were ordered by attending physicians, as
reflected in Lynchburg Dialysis’ medical records.

SUMMARY OF FINDINGS

For 99 of the 100 sampled claims, Lynchburg Dialysis administered, billed, and was paid for
units of Epogen that were consistent with the units ordered by attending physicians, as reflected
in Lynchburg Dialysis’ medical records. However, Lynchburg Dialysis did not meet Medicare
payment requirements for some dates of service for one claim In that instance, we identified
discrepancies in Lynchburg Dialysis’ medical and billing records between the units of Epogen
ordered by the patient’s attending physicians and the units administered to the patients, billed by



                                                 i
Lynchburg Dialysis, and paid by Medicare. In addition, for 33 of the 100 claims (4 claims had
two errors) Lynchburg Dialysis medical and billing records reflected errors that we considered
procedural because they did not result in overpayments.

   	 For one claim with errors totaling $120, Lynchburg Dialysis’ medical and billing records
      reflected that, in total 15,000 units of Epogen were administered to a patient, billed by
      Lynchburg Dialysis, and paid by Medicare for three dates of service before November 8,
      2004, the effective date of Lynchburg Dialysis’ eligibility for participation in Medicare.

   	 For 9 of the 33 claims, Lynchburg Dialysis’ medical and billing records reflected
      discrepancies between the units of Epogen ordered by the patients’ attending physicians
      and the units administered to patients, billed by Lynchburg Dialysis, and paid by
      Medicare. For purposes of this report, we considered these errors procedural because
      they did not result in overpayments.

   	 For 27 of the 33 claims, Lynchburg Dialysis’ billing records reflected errors in the
      hematocrit levels reported with the claims. For purposes of this report, we considered
      these errors procedural because they did not result in overpayments.

Although Lynchburg Dialysis had controls in place, based on our review, Lynchburg Dialysis
personnel did not always follow all of those procedures. The errors related to the one claim that
resulted in overpayments occurred because the first three treatments occurred before Lynchburg
Dialysis was eligible for participation with Medicare. As a result, Lynchburg Dialysis received
$120 in overpayments and patients did not always receive the amounts of Epogen ordered by
attending physicians. When physicians’ orders are not followed, quality of care may be affected.

RECOMMENDATIONS

We recommend that Lynchburg Dialysis:

   	 refund the $120 in overpayments and

   	 ensure that it follows policies and procedures that are consistent with Federal
      requirements in order to avoid discrepancies between the units of Epogen ordered by
      patients’ physicians and the units administered to the patient, billed by Lynchburg
      Dialysis, and paid by Medicare.

UNIVERSITY OF VIRGINIA MEDICAL CENTER COMMENTS

In written comments (Appendix) on our draft report, the University of Virginia Medical Center
concurred with our recommendations. The University of Virginia Medical Center stated that it
had contacted the fiscal intermediary and refunded the $120 in overpayments. In addition, it had
updated its protocol guidelines for hemodialysis to remedy the issue of discrepancies between
the physicians’ orders and units of Epogen administered.




                                               ii
                                                 TABLE OF CONTENTS 


                                                                                                                                   Page
                                                                                                                                   U




INTRODUCTION........................................................................................................................ 1 


          BACKGROUND ............................................................................................................... 1         

              Medicare ................................................................................................................ 1      

              Epogen Therapy for End-Stage Renal Disease Patients ........................................ 1 

              Medicare Requirements and Payments for End-Stage Renal Disease Services .... 2 

              University of Virginia Medical Center—Lynchburg Dialysis............................... 2 

              Policy and Procedures Manual and Medical Information System......................... 2 


          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................. 3 

               Objective ................................................................................................................ 3    

               Scope...................................................................................................................... 3   

               Methodology .......................................................................................................... 3        


FINDINGS AND RECOMMENDATIONS .............................................................................. 4 


          FEDERAL REQUIREMENTS.......................................................................................... 5                     

               Medical Recordkeeping ......................................................................................... 5               

               Medicare Payment Procedures............................................................................... 5                    


          CLAIM FOR EPOGEN BEFORE MEDICARE ELIGIBILITY ...................................... 5 


          CLAIMS WITH PROCEDURAL ERRORS THAT RESULTED 

            IN DISCREPANCIES ................................................................................................... 6 

                Fewer Units of Epogen Billed and Paid Than Ordered and Administered............ 6 

                More Units of Epogen Administered Than Ordered, Billed, and Paid.................. 6 


          CLAIMS WITH INCORRECT HEMATOCRIT LEVELS .............................................. 6 


          LYNCHBURG DIALYSIS POLICY AND PROCEDURES NOT ALWAYS 

            FOLLOWED.................................................................................................................. 7 


          RECOMMENDATIONS................................................................................................... 8                 


          UNIVERSITY OF VIRGINIA MEDICAL CENTER COMMENTS............................... 8 


APPENDIX

          UNIVERSITY OF VIRGINIA MEDICAL CENTER COMMENTS




                                                                   iii
                                                  INTRODUCTION                                                              


BACKGROUND

Medicare

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people 65 years of age and older, people under 65 with certain disabilities,
and people of all ages with end-stage renal disease (permanent kidney failure requiring a kidney
transplant or dialysis). The Centers for Medicare & Medicaid Services (CMS) administers the
program.

Epogen Therapy for End-Stage Renal Disease Patients

Section 1881(a) of the Act establishes the benefits provided by Medicare Parts A and B for
individuals who have been determined to have end-stage renal disease as provided in
section 226A of the Act. Benefits include injections of Epogen, usually administered during
dialysis. 1     FP




Individuals diagnosed with end-stage renal disease often suffer from anemia and Epogen lessens
the effects of anemia for those patients. The initial dose of Epogen is based on an individual’s
weight and hematocrit level, a measure of the percentage of red blood cells in the blood. The
target hematocrit level for dialysis patients receiving Epogen therapy is 30 to 36 percent, which
represents a hemoglobin level of 10 to 12 grams per deciliter. 2 For dialysis patients, hematocrit
                                                                            FP   PF




levels above 36 percent can lead to increased risk of cardiovascular complications and death. 3             FP   PF




Epogen doses are generally adjusted by a physician based on a review of the patient’s medical
record. Some facilities may also use a preestablished dosing algorithm. An algorithm is a
formula established by the facility Medical Director and ordered by the physician. It requires the
nurse on duty to gather information from the patient’s medical record and determine the correct
dose of Epogen to maintain an optimal hematocrit level. Based on the algorithm, a nurse may
decrease, increase, or maintain the Epogen dose or temporarily suspend the dose for one or more
treatments. University of Virginia Medical Center—Lynchburg Dialysis (Lynchburg Dialysis)
used dosing algorithms to adjust patient Epogen doses.




1
PEpogen is an “erythropoietin-stimulating agent,” manufactured by Amgen, which stimulates the production of red
    P




blood cells.
2
P   P   CMS “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 8, section 60.4.
3
PAfter our audit period, the Food and Drug Administration issued a black box label warning for Epogen that
    P




“erythropoiesis-stimulating agents (ESAs) increased the risk for death and for serious cardiovascular events when
administered to target a hemoglobin of greater than 12 [grams per deciliter]….” Food and Drug Administration,
“Epogen Label,” March 9, 2007. Available online at http://www.fda.gov/cder/foi/label/2007/103234s51221bl.pdf .
                                                         HTU                                                          UTH




Accessed on April 23, 2009.


                                                               1

Medicare Requirements and Payments for End-Stage Renal Disease Services

As a basis for payment, section 1833(e) of the Act states: “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due . . . .” Federal
regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information, upon
request, to determine whether payment is due and, if so, the amount to be paid.

CMS’s “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 8, section 10.1,
specifies that renal dialysis facilities receive a composite rate for outpatient maintenance dialysis
services. The composite rate is a comprehensive payment for dialysis services except for bad
debts, physicians’ patient care services, separately billable laboratory services, and separately
billable drugs, including Epogen. CMS contracts with fiscal intermediaries 4 to process and pay
                                                                                         FP   PF




Medicare Part B claims for Epogen administered by renal dialysis facilities. Generally, for each
patient, providers submit one bill per month, which includes the charges for up to 14 dialysis
treatments, separately billable laboratory services and separately billable drugs, including
Epogen. Providers submitted claims that identified the total units of Epogen administered to
each patient during the billing period, not the dose of Epogen administered during each
treatment. Payments for Epogen are subject to Medicare Part B deductible and coinsurance
requirements.

University of Virginia Medical Center—Lynchburg Dialysis

Lynchburg Dialysis, located in Lynchburg, Virginia, is one of eight outpatient dialysis facilities
operated by University of Virginia Medical Center. Lynchburg Dialysis provides treatment for
end-stage renal disease at 43 dialysis stations and 2 home training stations. It received payments
totaling $11,115,806 for Medicare service provided from November 8, 2004, through June 30,
2006. Of this amount, $2,444,366 was for the administration of Epogen.

Policy and Procedures Manual and Medical Information System

To assist in its facilities’ efforts to comply with requirements under Federal and State law,
Lynchburg Dialysis established a medical record policy and documentation procedures regarding
Epogen administration. Lynchburg Dialysis policy requires a physician, nurse practitioner, or
physician assistant to order and adjust the Epogen dose as necessary. In addition, the anemia
manager may adjust the Epogen dose in accordance with the preestablished dosing algorithm.
Lynchburg Dialysis maintains an automated medical records application (Lynchburg System)
that provides a process for prescribers to initiate and update medication orders and inform nurses
of the ordered medications to administer during dialysis treatment. The Lynchburg System
documents the treatments, laboratory services, medications, and other services administered to


4
PDuring the audit period, the Medicare Part B claims we reviewed were processed and paid by fiscal intermediaries.
    P




The Medicare Modernization Act of 2003, P.L. No. 108-173, which became effective on October 1, 2005, amended
certain sections of the Act, including section 1842(a), to require that Medicare administrative contractors replace
carriers and fiscal intermediaries by October 2011.



                                                         2

the patient during the dialysis session. Also, the Lynchburg System verifies the quantity ordered
to the quantity administered and submits that quantity to the billing department to produce bills.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Lynchburg Dialysis administered, billed and was paid
for units of Epogen consistent with the units that were ordered by attending physicians, as
reflected in Lynchburg Dialysis’ medical records.

Scope

Our review covered 4,866 monthly claims totaling $2,444,366 for Epogen administered by
Lynchburg Dialysis from November 8, 2004, through June 30, 2006.

We limited our review of Lynchburg Dialysis’ internal controls to the administration of and
billing for Epogen, including medical recordkeeping. The objective of our review did not require
an understanding or assessment of Lynchburg Dialysis’ complete internal control structure. We
did not determine the medical necessity of any items or services, including Epogen.

We performed fieldwork at the University of Virginia Medical Center in Charlottesville,
Virginia.

Methodology

To accomplish our objective, we:

       reviewed applicable Federal laws, regulations, and guidance related to the treatment of
        end-stage renal disease, renal dialysis facilities, and the administration of Epogen;

       reviewed applicable State laws, regulations, and guidance related to Lynchburg Dialysis’
        policies and procedures;

       reviewed Lynchburg Dialysis’ policies and procedures, including its medical
        recordkeeping and billing practices;

       interviewed Lynchburg Dialysis officials;

       identified and assessed the adequacy of internal controls related to the administration of
        and billing for Epogen; and

       identified a sampling frame of all claims in the CMS claims history file with Epogen
        administered at Lynchburg Dialysis from November 8, 2004, through June 30, 2006, and:




                                                 3

       o	 selected from the sampling frame a simple random sample of 100 claims for Epogen
          totaling $49,898 and

       o	 for each sampled claim, compared the units of Epogen ordered by the Lynchburg
          Dialysis attending physician, administered to patients, billed by Lynchburg Dialysis,
          and paid by Medicare to determine whether such units, as reflected in Lynchburg
          Dialysis’ medical and billing records, were consistent with each other.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

For 99 of the 100 sampled claims, Lynchburg Dialysis administered, billed, and was paid for
units of Epogen that were consistent with the units ordered by attending physicians, as reflected
in Lynchburg Dialysis’ medical records. However, Lynchburg Dialysis did not meet Medicare
payment requirements for some dates of service for one claim. In that instance, we identified
discrepancies in Lynchburg Dialysis’ medical and billing records between the units of Epogen
ordered by the patient’s attending physicians and the units administered to the patients, billed by
Lynchburg Dialysis, and paid by Medicare. In addition, for 33 of the 100 claims (4 claims had
two errors) Lynchburg Dialysis medical and billing records reflected errors that we considered
procedural because they did not result in overpayments.

   	 For one claim with errors totaling $120, Lynchburg Dialysis’ medical and billing records
      reflected that, in total 15,000 units of Epogen were administered to a patient, billed by
      Lynchburg Dialysis, and paid by Medicare for three dates of service before November 8,
      2004, the effective date of Lynchburg Dialysis’ eligibility for participation in Medicare.

   	 For 9 of the 33 claims, Lynchburg Dialysis’ medical and billing records reflected
      discrepancies between the units of Epogen ordered by the patients’ attending physicians
      and the units administered to patients, billed by Lynchburg Dialysis, and paid by
      Medicare. For purposes of this report, we considered these errors procedural because
      they did not result in overpayments.

   	 For 27 of the 33 claims, Lynchburg Dialysis’ billing records reflected errors in the
      hematocrit levels reported with the claims. For purposes of this report, we considered
      these errors procedural because they did not result in overpayments.

Although Lynchburg Dialysis had controls in place, based on our review, Lynchburg Dialysis
personnel did not always follow all of those procedures. The errors related to the one claim that
resulted in overpayments occurred because the first three treatments occurred before Lynchburg
Dialysis was eligible for participation with Medicare. As a result, Lynchburg Dialysis received




                                                 4

$120 in overpayments and patients did not always receive the amounts of Epogen ordered by
attending physicians. When physicians’ orders are not followed, quality of care may be affected.

FEDERAL REQUIREMENTS

Medical Recordkeeping

As a condition for coverage during our audit period, renal dialysis facilities were required to
centralize all clinical information in each patient’s medical record in accordance with accepted
professional standards and practices (42 CFR § 405.2139). 5 The medical records were required
                                                                  FP   PF




to be “completely and accurately documented, readily available, and systematically organized to
facilitate the compilation and retrieval of information.” Subsection (a) of 42 CFR § 405.2139
further stated that medical records must contain certain general categories of information,
including “diagnostic and therapeutic orders; observations, and progress notes; reports of
treatments and clinical findings . . . .”

Medicare Payment Procedures

As a basis for payment, section 1833(e) of the Act states that “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due such provider or other
person under this part for the period with respect to which the amounts are being paid or for any
prior period.”

Federal regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information,
upon request, to determine whether payment is due and, if so, the amount to be paid.

CMS’s “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 8, section 60.4,
requires that renal dialysis facilities report the patient’s hematocrit reading for claims that
include administered Epogen. Prior to January 1, 2006, the hematocrit reading reported should
be the reading taken prior to the last dose of Epogen administered during the billing period.
Beginning January 1, 2006, the hematocrit reading reported should be the patient’s most recent
reading taken before the start of the billing period.

CLAIM FOR EPOGEN BEFORE MEDICARE ELIGIBILITY

For each sample claim, we compared Lynchburg Dialysis’ medical and billing records with
respect to the units of Epogen (1) ordered by the patients’ attending physicians, (2) administered
by the nurse to the patient, (3) billed by Lynchburg Dialysis, and (4) paid by Medicare. For one
claim with errors totaling $120, Lynchburg Dialysis billed for 15,000 units of Epogen before it
was eligible for participation in Medicare.

On November 24, 2004, CMS notified the University of Virginia Health System that, effective
November 8, 2004, Lynchburg Dialysis was approved to operate as a satellite facility of the

5
PThis condition for coverage was amended effective October 14, 2008. The amended condition for coverage is now
    P




at 42 CFR § 494.170.


                                                      5

University of Virginia Medical Center and eligible for participation in Medicare. For one claim
in our sample, Lynchburg Dialysis billed for three dialysis treatments, including a total of 15,000
units of Epogen totaling $120, for treatments that occurred before November 8, 2004, the date
Lynchburg Dialysis became eligible for participation in Medicare.

CLAIMS WITH PROCEDURAL ERRORS THAT RESULTED IN DISCREPANCIES

For nine claims, Lynchburg Dialysis’ medical and billing records reflected discrepancies
between the units of Epogen ordered by the patients’ attending physicians and the units
administered to the patients, billed by Lynchburg Dialysis, and paid by Medicare for one or more
dates of service during the month reviewed that did not result in an overpayment and are, for
purposes of this report considered procedural errors. For eight of these claims, Lynchburg
Dialysis did not bill for units of Epogen that were ordered and administered. For one claim, the
patient received a higher dose of Epogen than ordered.

Fewer Units of Epogen Billed and Paid Than Ordered and Administered

For eight claims, Lynchburg Dialysis’ medical records included attending physician orders to
administer Epogen to eight patients. The eight patients received the prescribed doses of Epogen
during the months reviewed, but Lynchburg Dialysis did not bill and Medicare did not pay for all
of the units of Epogen ordered and administered. In total, Lynchburg Dialysis did not bill for
313,000 units of Epogen, totaling $2,420, that were ordered and administered. The billing errors
occurred because the staff responsible for billing did not include the total units of Epogen that
were ordered and administered in Value Code 68, the field on the Medicare claim form that
includes the units of Epogen administered and is the basis for Medicare payment for Epogen.
Lynchburg Dialysis reported units of Epogen administered in the description field of the
Medicare claim form but that field does not effect Medicare payment.

More Units of Epogen Administered Than Ordered, Billed, and Paid

For one claim, Lynchburg Dialysis’ medical records included the attending physician’s order,
dated March 29, 2005, to administer 10,000 units with dialysis treatments on Tuesday, Thursday,
and Saturday. On Wednesday March 30, a nurse administered 10,000 units of Epogen to the
patient even though the attending physician did not order Epogen for that day. However,
Lynchburg Dialysis did not bill for the 10,000 units administered on March 30, and Medicare
only paid for the units of Epogen ordered by the attending physician.

CLAIMS WITH INCORRECT HEMATOCRIT LEVELS

CMS’s “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 8, section 60.4,
requires that renal dialysis facilities report the patient’s hematocrit level for claims that include
administered Epogen. Prior to January 1, 2006, the hematocrit level reported should be the level
taken prior to the last dose of Epogen administered during the billing period. Beginning
January 1, 2006, the hematocrit level reported should be the patient’s most recent level taken
before the start of the billing period.




                                                  6

For 27 claims, Lynchburg Dialysis’ billing records reflected a hematocrit level that was different
than the hematocrit level reflected in the patients’ medical records.

   	 For calendar years 2004 and 2005, Lynchburg Dialysis should have reported the last
      hematocrit level during the billing period on the claim. The hematocrit levels submitted
      on nine claims were not correct.

   	 For calendar year 2006, Lynchburg Dialysis should have reported the last hematocrit
      level before the start of the billing period on the claim. The hematocrit levels on 18
      claims were not correct.

Although the hematocrit levels for the 27 claims were not correct, the amount Medicare paid for
those claims did not result in overpayments.

LYNCHBURG DIALYSIS POLICY AND PROCEDURES NOT ALWAYS FOLLOWED

To assist in its efforts to comply with requirements under Federal law and States’ respective
Nurses Practice Act, Lynchburg Dialysis established a medical record policy and documentation
procedures regarding Epogen administration. Lynchburg Dialysis maintains automated medical
and billing records.

Lynchburg Dialysis policy requires a physician, nurse practitioner, or physician assistant to order
and adjust the Epogen dose as necessary. In addition, the anemia manager may adjust the
Epogen dose in accordance with the preestablished dosing algorithm. Lynchburg Dialysis
maintains the Lynchburg System that provides a process for prescribers to initiate and update
medication orders and inform nurses of the ordered medications to administer during dialysis
treatment. The Lynchburg System documents the treatments, laboratory services, medications,
and other services administered to the patient during the dialysis session. Also, the Lynchburg
System verifies the quantity ordered to the quantity administered and submits that quantity to the
billing department to produce bills.

Although Lynchburg Dialysis had controls in place as specified in the documented procedures,
based on our review, Lynchburg Dialysis personnel did not always follow all of those
procedures. Lynchburg Dialysis (1) billed for services that were provided before its eligibility
for Medicare reimbursement, (2) administered Epogen on one date of service that was not
ordered, (3) submitted bills to Medicare that did not identify the correct number of units of
Epogen administered to patients, and (4) submitted bills to Medicare that did not identify the
correct hematocrit levels for the patients.




                                                7

RECOMMENDATIONS

We recommend that Lynchburg Dialysis:

   	 refund the $120 in overpayments and

   	 ensure that it follows policies and procedures that are consistent with Federal
      requirements in order to avoid discrepancies between the unit of Epogen ordered by
      patients’ physicians and the units administered to the patient, billed Lynchburg Dialysis,
      and paid by Medicare.

UNIVERSITY OF VIRGINIA MEDICAL CENTER COMMENTS

In written comments on our draft report, the University of Virginia Medical Center concurred
with our recommendations. The University of Virginia Medical Center stated that it had
contacted the fiscal intermediary and refunded the $120 in overpayments. In addition, it had
updated its protocol guidelines for hemodialysis to remedy the issue of discrepancies between
the physicians’ orders and units of Epogen administered. The University of Virginia Medical
Center’s comments are included in the appendix. We have excluded the enclosure
accompanying the comments because it contained personally identifiable information.




                                               8

APPENDIX

       APPENDIX: UNIVERSITY OF VIRGINIA MEDICAL CENTER COMMENTS 





\}j
  JNlVERSITY
  " 'VIRGINIA
  HEALTH SYsttM

                     Medical Ce nter I Patient Financial Services

                     September 11, 2009

                     Stephen Vlrbitsky 

                     Regiona l Inspector General for Audit Services 

                     Department of Health and Human Services 

                     Public Ledger Building, Suite 316 

                     150 S. Independence Mall West 

                     Philadelphia, PA 19106-3499 


                     Re:    Payments for Epogen -            Report Number : A-03-07-00028

                     Dear Mr. Virbitsky:

                     Thank you for your: letter dated August 14, 2009 enclosing the audit report
                     on payments for Epogen administered in our Lynchburg dialysis unit . I have
                     listed our responses below for the two recommendations in the report.
                                                                             ,
                           1. 	 The c laim that was overpaid by $120 was corrected with National
                                Government Services on 6/8/09. I have enclosed a print out from
                                their ctaim system reflecting the correction, as we ll as print out of
                                our account records documenting the retraction and repayment of
                                the claim.

                           2. 	 The protocol guidelines for hemodialysis have been updated to
                                Include the fo l lowing change which has been approved by the
                                physician director. This change should remediate the issue of
                                discrepanCies between the physicians' orders and units administered:

                                           When a patient's dialysis schedule Is a ltered for any reason
                                           resulting In a change of thei r routine dialysis day, all
                                           scheduled services regular dialysis, i ncluding ESA's, Vitamin
                                           o analogs, a n d parenteral iron will be administered on the
                                           off schedu le day . The nurse wi l l co nsult with the MDjNPjPA
                                           for guidelines r ega r ding any ordered antibiotics or other
                                           medica tions.

                     Please let me k.now If you need any further information from our pertai n i ng
                     to the audit.

                    ~re l Y               .

                  ~~h~~-,s-o~n------
                     Admin istrator, Patient Financia l Services

                     Enctosure
                     PO 80.: 800750 I Charlottesville, VA 22908-0 750 ! 434.924.5376 I 800.523. 4398 I F)( 434.982.2592
